No. 19-1212

 

In THE
Supreme Court of the Anited States

 

CHAD WOLF,
ACTING SECRETARY OF HOMELAND SECURITY, ET AL.
Petitioners,
Vv.
INNOVATION LAW LaB, ET AL.
Respondents.

CERTIFICATE OF SERVICE

 

I, Brianne J. Gorod, do hereby declare that on January 22, 2021, as required
by Supreme Court Rule 29.5, I have served by first-class mail, postage pre-paid, the
Brief of Constitutional Accountability Center as Amicus Curiae in Support of

Respondents on counsel for each party to the above proceedings as follows:

Jeffrey B. Wall Judy Rabinovitz

Acting Solicitor General American Civil Liberties Union
United States Dep’t of Justice 125 Broad St., 18 Fl.

950 Pennsylvania Ave., NW New York, NY 10004
Washington, DC 20530-0001 JRabinovitz@aclu.org
SupremeCtBriefs@USDOJ.gov (212) 549-2618

(202) 514-2217

Counsel of Record for Petitioners Counsel of Record for Respondents
Chad Wolf, Acting Secretary of Innovation Law Lab, et al.

Homeland Security, et al.

I declare under penalty of perjury that the foregoing is true and correct.
Executed on January 22, 2021.

Brianne J< Gorod
Counsel for Amicus Curiae
